<html>
<title> - PLANNING COMMUNITIES FOR A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
   PLANNING COMMUNITIES FOR A CHANGING CLIMATE--SMART GROWTH, PUBLIC 
                     DEMAND AND PRIVATE OPPORTUNITY 

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2008

                               __________

                           Serial No. 110-40


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-522 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
    Prepared Statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     9
    Prepared Statement...........................................    11
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................    12
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................    12
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee
    Prepared Statement...........................................    14

                               Witnesses

David Goldberg, Director of Communications, Smart Growth America
    Prepared Statement...........................................    17
    Answers to submitted questions...............................    77
Steve Winkelman, Transportation Director, Center for Clean Air 
  Policy
    Prepared Statement...........................................    32
Gregory Cohen, President and CEO, American Highway Users Alliance
    Prepared Statement...........................................    44
    Answers to submitted questions...............................    83
Dr. Sultan Al Jaber, CEO, Masdar Initiative, Abu Dhabi, United 
  Arab Emirates
    Prepared Statement...........................................    53
Steve Hewitt, City Administrator, Greensburg, Kansas
    Prepared Statement...........................................    58


HEARING ON ``PLANNING COMMUNITIES FOR A CHANGING CLIMATE SMART GROWTH, 
                PUBLIC DEMAND AND PRIVATE OPPORTUNITY''

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:27 a.m., in room 
311, Cannon House Office Building, Hon. Edward Markey (chairman 
of the committee) presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Cleaver, Hall, Sensenbrenner, and Walden.
    Staff present: Danielle Baussan, Jeff Sharp.
    The Chairman [presiding]. Good morning, and welcome to the 
Select Committee on Energy Independence and Global Warming. We 
look forward to this very exciting hearing.
    It is of historic importance that a few years ago, the 
launch of Sputnik challenged America to build a better 
scientific community. Today, skyrocketing gas prices and the 
threat of global warming challenge us to build green 
communities. Green communities offer relief from high gasoline 
prices and reduce greenhouse gas emissions. They employ 
renewable energy, rely on energy-efficient buildings, and adopt 
Smart Growth principles to reduce the distances between 
destinations and foster a diverse local economy.
    Through these actions, green communities reduce vehicle 
emissions, lower energy demand, and reduce the need for costly 
road and energy infrastructure. The result is reduced global 
warming emissions and lower taxes. The growing demand for green 
communities overwhelms supply. With gasoline priced at over $4 
per gallon, and a housing crisis hurting many areas of the 
country, young professionals, smaller families, and aging 
populations seek the Smart Growth lifestyle in increasing 
numbers. Despite this shift, local and federal law can make it 
simpler to build on whatever open land is available, scattering 
people, workplaces, and resources far apart.
    This hearing will examine whether the government can help 
communities return to a lifestyle that does not depend on long 
drives to work, and hassle-filled drives to schools, grocery 
stores, and shopping. Smart Growth communities were once the 
norm across the country. Like many of you, I have lived for 
years in a green community without even realizing. When I grew 
up in Malden, Massachusetts, I walked to school. We took the 
bus around town. My parents did not buy a car until I was 9 
years old.
    It is hard to think that Malden was green when we would 
take field trips to find a park. But the truth is that close-in 
experience was typical of many towns and cities in the 20th 
century America. How communities achieve Smart Growth 
principles varies widely. The select committee is fortunate to 
have two very different examples of attempts to build 
successful green communities.
    The rural community of Greensburg, Kansas was destroyed by 
a tornado last May. Now, it is rebuilding using the highest 
green building standards, developing a wind-power economy, and 
retaining the businesses and neighbors integral to a close-knit 
community. Rural Smart Growth may not be a phrase heard often, 
but it should be. The small town principles of walking to 
school, 10-minute driving commute, and shopping at local stores 
are identical to those of urban smart communities like 
Portland, Oregon.
    Masdar City in Abu Dhabi represents the future of green 
communities. They are working with the private sector, 
engineers from MIT and American architects to build a city that 
will be a net exporter of energy. Masdar will incorporate basic 
services like schools and libraries with power streets, 
photovoltaic awnings, and an academic and commercial center 
focusing on the latest energy technology.
    Despite having a century's supply of oil, Abu Dhabi has 
chosen to invest in a new clean energy climate-conscious 
economy by building a Smart Growth zero-net energy city. Make 
no mistake, Masdar is our new Sputnik. It should be a wake-up 
call to America and a challenge to each of us. The city of 
tomorrow creating the technology of the future is now underway 
in another country.
    We must rise to the challenge of building Smart Growth 
energy efficient communities. We have the scientific ability to 
do so, and as the story of Greensburg will demonstrate, we also 
have the heart and the American spirit to make it happen.
    My time has expired for an opening statement.
    We now turn and recognize the ranking member of the 
committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Most communities want to grow, and I will bet if you ask 
governors, mayors and council members of these communities how 
they want to grow, I am sure nearly all would say they want to 
grow smartly. After all, it is only common sense for community 
leaders to use the most up-to-date planning methods and ideas.
    Today's hearing will highlight many smart ideas that can 
help communities grow bigger and more prosperous without 
subjecting themselves to some of the problems that are often 
associated with large urban areas, such as traffic, air 
pollution and congestion. However, while some of the concepts 
to be presented today could simply be described as common 
sense, others might be described as a waste of money.
    While reducing greenhouse gas emissions is a good policy, 
it is a policy that should be properly balanced with economic 
realities. The testimony of Gregory Cohen, the president and 
CEO of the American Highway Users Alliance shows us that many 
Smart Growth policies don't have to be expensive at all. For 
example, improved signal timing and intelligent transportation 
systems are among the most cost-effective ways to reduce 
greenhouse gases. I welcome Mr. Cohen here today.
    Where feasible and practical, I would encourage communities 
to enact some of these Smart Growth principles based on their 
unique needs. One global warming principle that I consistently 
advocate is that policies need to produce tangible 
environmental benefits. Local elected leaders will be pressured 
to adopt many Smart Growth policies, but they should diligently 
research exactly how these changes might affect these 
communities. In many cases, there might not be very much bang 
for the buck, if any at all.
    Also, I do not think the federal government should dictate 
to local government how they should grow. Managing growth is a 
local decision, and the local elected leaders should be free to 
take local conditions under consideration, without taking 
burdensome one-size-fits-all regulations from the federal 
government. I do believe in local home rule. In my state, the 
Wisconsin constitution gives local home rule to incorporated 
municipalities.
    One argument that will be forwarded today is that Smart 
Growth will help reduce reliance on oil, presumably leading to 
lower gas prices in the future. I don't dispute that reducing 
demand for gas will help lower the price. However, people 
should not confuse Smart Growth planning for policy that will 
help lower gas prices in the foreseeable future.
    The American people want solutions to today's high gas 
prices. They need relief now. While this hearing will help lay 
out a vision for the future, Americans want us working today on 
policies that will help reduce gas prices in the near term. By 
dropping restrictions on domestic oil exploration, Congress 
could take the first big step towards making gasoline more 
affordable in the U.S. and reducing our reliance on foreign 
oil.
    This, of course, is not the only thing that Congress can 
do, but it should be the first thing that we do. Yet common 
sense principles like this don't seem to be anywhere on the 
Democratic majority's radar. Of course, there are many long-
term steps that Congress can take to reduce our reliance on 
foreign oil and to reduce greenhouse gas emissions. One of 
these is to encourage Smart Growth where feasible. But today's 
first priority should be to increase domestic supplies of oil 
and gas.
    I would hope that the speaker and the majority start 
focusing the House on this important priority.
    I thank the gentleman and yield back the balance of my 
time.
    The Chairman. I thank the gentleman.
    I now will recognize the gentleman from Portland, Oregon, 
Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I apologize that there isn't a witness from Oregon here 
today. The group from the metropolitan area actually is 
traveling in Europe, exchanging views, but I think we will be 
able to deal with some of these elements. I commend you and 
your staff for the excellent memorandum that I think lays these 
issues out.
    We got into the Smart Growth movement in Oregon, first, to 
deal with legislation to help protect our farmland. From there, 
we found that there were a wide variety of other benefits by 
strengthening communities. The things that you talked about in 
the Smart Growth community that you grew up in, we got away 
from. Unfortunately, dumb growth is alive and well across the 
United States today.
    Our congressional delegation just had to fight the federal 
government that was going to take the INS office and move it 
out of the heart of the central city 12 miles out into the 
suburbs where it wasn't even accessed by bus. Hopefully, there 
is an opportunity for the federal government to learn from this 
as well.
    But it does make a difference today. Our local residents 
are 10 times more likely to bicycle to work than the national 
average. They drive 20 percent less than residents of other 
major metropolitan areas, saving by some estimates up to $2,500 
a year in transportation costs. It hasn't resulted in our not 
growing. Indeed, our metropolitan area grew by 85 percent 
between 1986 and 2006. We just didn't expand the carbon 
footprint, and ironically the homes have actually maintained 
value, as is represented in your memo. They actually were 
increasing in value, rather than decreasing in this last year.
    This is important business. While I agree with my good 
friend that we don't want a one-size-fits-all federal 
prescription, the fact is that the federal government through 
its tax policies, transportation policies, and its stupid 
infrastructure decisions with some of its own facilities has a 
profound effect on this. For us to get it right with 
transportation, with energy, with tax, it can help set a 
framework that will make a huge difference.
    And last but not least, the federal government itself 
should lead by example as the largest manager of infrastructure 
in the world, the largest consumer of energy, and the largest 
landlord and property owner.
    I appreciate having this hearing, and I do apologize that 
the Oregonians are off proselytizing other parts of the world, 
but Mr. Walden and I will try and step into the gap.
    [The prepared statement of Mr. Blumenauer follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Oregon, Mr. Walden, 
for an opening statement.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I think Oregon has been a real leader, both in terms of 
laying out a plan for best uses of its great resources and 
certainly in the urban areas for dealing with growth in a 
thoughtful way, although not altogether without controversy 
from time to time, as my colleague from Portland can tell us. 
But clearly in those areas, having mass transit that works, 
being on the innovative side of the transportation equation 
made a lot of sense.
    I have in the legislature and elsewhere supported a lot of 
those transportation initiatives because you have to be able to 
move people in a congested area in an efficient way. That makes 
sense.
    Now, I represent a district that is 70,000 square miles. I 
have counties where there is one person for every 9 miles of 
power line. We have a problem making sure that Wal-Mart moms 
and diesel-driving truck dads can get access to fuel they can 
afford. While we need to do these things that help in the urban 
areas and need to foster renewable energy resources--and my 
district is home to a lot of wind energy, enormous geothermal 
energy potential, great solar potential we are working on a 
project there--I haven't seen too many diesel trucks being 
powered by windmills, at least not yet.
    Maybe we will get to a plug-in hybrid version that will 
work down the road, and I hope we do, but right now we need to 
access our own natural resources like every other 
industrialized country in the world. That is why I have 
supported lifting the ban on outer continental shelf drilling. 
I think it is a real hardship being foisted on top of Americans 
that we don't access our own oil and gas reserves. It is long 
overdue. We are paying an enormous price for it now, and that 
needs to change.
    I just look forward to the day where at least we could have 
a vote on the floor on that issue. Then we could actually fund 
the services that we need in this country and perhaps be not a 
debtor nation, if you will, but rather maybe create our own 
sort of sovereign wealth fund. That wouldn't be a bad thing, 
pay down our debt a little bit.
    So Mr. Chairman, I look forward to the topic today. I think 
it is going to be real good to hear about. We have other issues 
we need to attend to as well. Thank you.
    The Chairman. Thank you. The gentleman's time has expired.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I think this is a critically important hearing. As the 
former mayor of Missouri's largest city, I and other mayors 
have bragged over the years about the fact that Kansas City, 
Missouri is a city of 322 square miles. We brag that you could 
place the entire city of St. Louis inside our city limits three 
times, or San Francisco 30 times. We have more circumferential 
highway miles per capita than any city in the nation. We 
bragged about it.
    The truth of the matter is that is one of the worst things 
that is going on in our community is continuing to expand the 
city. It hurts the taxpayers because when we provide tax 
increment financing for a project in the suburbs, and when we 
do some kind of tax abatement for a major development, we are 
actually causing the use of utilities to rise because the 
further out that people move from the generators, the more 
costly and the more waste.
    We don't have a major transportation system. We have no 
light rail. We have buses. The sad thing is that we have track 
running all through the city. We at one time had a very good 
rail system up until the 1950s when the bus companies came in 
and convinced city leaders that the bus was the vehicle of the 
future, almost like a Flash Gordon rocket. So we paved over all 
of the rail.
    I think mayors around the country now realize that the 
people in the past had it right. There was a time when if you 
lived in the central city, which was also surrounded by walls, 
you were of course a big-time resident. If you lived in the 
suburbs outside the walls, you were not only in peril because 
if there was an attack you were going to get hurt first, but 
you also were not considered to be a part of the major 
community.
    We have to go back to that. I am very, very much interested 
in getting your take on some of the major issues facing cities 
even as we sit here today. Decisions are being made in 
metropolitan areas all over the country that could use the 
benefit of your wisdom.
    Thank you very much. I yield back no time. I don't have any 
time remaining. [Laughter.]
    [The prepared statement of Mr. Cleaver follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank the gentleman.
    The chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    Before I comment on the topic of the day, I just want to 
observe that our distinguished members on the other side of the 
aisle seem to have read the same memo that all Republicans are 
reading from lately, which is to blame Democrats for high gas 
prices. It is interesting when our President George W. Bush 
said back when oil was $50 a barrel that from now on no more 
need for an incentive for oil companies to drill, yet they have 
9,700-plus leases that they have already leased in the lower 48 
and adjacent offshore leases, in excess of 26 million acres of 
land that has been environmentally cleared, ready for metal to 
meet earth, and for some reason they are not drilling on land 
they already own the right to drill on.
    Two cases in particular offshore that have been well 
publicized where Republican governors, Jeb Bush in Florida and 
Arnold Schwarzenegger in California, have been fighting 
offshore don't get mentioned nearly as often as the fact that 
somehow we or our speaker are standing in the way of the oil 
companies doing that which they already have leased the right 
to do on our national lands.
    Today's hearing, however, on Smart Growth speaks to what I 
would believe is one of the fundamental keys in our ability to 
confront climate change. I know for a fact that most of the 
commuters that I know in the 19th district of New York would 
love to be doing things other than watching their life go by 
three car lengths at a time in good-luck traffic. They way we 
live takes a toll on our environment, degrades our public 
health and the quality of life.
    The good news is that contrary to widely held perceptions, 
we can usher in a smarter, more sustainable future without 
forcing people to make radical decisions or extreme changes in 
their daily lives.
    I yield back, Mr. Chairman.
    The Chairman. Great. The gentleman's time has expired.
    The chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis. Thank you, Mr. Chairman. I will try to be brief. 
I am kind of losing my voice here from congestion and pollution 
in the air. [Laughter.]
    I want to thank the chairman for having this meeting and 
for inviting our panelists here today. You know, in California 
and the San Gabriel Valley where I live and reside, there are 
some innovative Smart Growth projects going on. In some cases, 
the federal government has been helpful. In some cases, they 
have not. I wish they would be more helpful, especially when it 
comes to transportation and when we are looking at other modes 
for communities that are transit-dependent, more so than in 
other communities.
    I am talking particularly about low-income, African 
American and Hispanic residents. In my district, one project 
that we are looking to hopefully seek funding from the federal 
government is a metro line that would go right through my 
district. It would help take students to classes. It would help 
eventually even take people possibly from L.A., Pasadena, 
downtown, all the way to LAX. But we are looking at some 
support from the federal government and our local authorities 
to do that.
    That is something that I think is smart and wise. We have 
invested in our communities. They have already developed 
transit centers that are ready to go to accept this project, 
but now it is just the federal government that has to say yes, 
we are going to get behind it. Lord knows, the pollution in our 
communities is very, very bad, and gotten worse in Los Angeles 
County and the San Bernardino area.
    So we know that there have to be better modes for us, 
particularly with the cost of gasoline now in my district about 
$4.69 a gallon. I filled up a quarter of my tank--$25 for four 
gallons. I thought it doesn't hurt me, but it does hurt a lot 
of the residents that I represent who only make minimum wage in 
the eastern San Gabriel Valley.
    So I would just say that we need to have new remedies, new 
ideas, and we have to get people to use other modes of 
transportation, whether it is bikes, whether it is skateboards 
or whatever. We have to do something to make it more user-
friendly for people to use different modes of transportation.
    I yield back the balance of my time.
    The Chairman. Great. I thank the gentlelady.
    All time for opening statements from the select committee 
members has been completed.
    [The prepared statement of Ms. Blackburn follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Now, we are going to turn to our very distinguished panel. 
Our first witness, David Goldberg, is the director of 
communications of Smart Growth America. Prior to joining Smart 
Growth America, Mr. Goldberg was a Loeb Fellow at Harvard 
University and a journalist covering issues for the Atlanta 
Constitution. We welcome you, sir. Whenever you are ready, 
please begin.

 STATEMENTS OF MR. DAVID GOLDBERG, DIRECTOR OF COMMUNICATIONS, 
  SMART GROWTH AMERICA, WASHINGTON, DC; MR. STEVE WINKELMAN, 
  TRANSPORTATION DIRECTOR, CENTER FOR CLEAN AIR POLICY, PORT 
   CHESTER, NEW YORK; MR. GREGORY COHEN, PRESIDENT AND CEO, 
AMERICAN HIGHWAY USERS ALLIANCE, WASHINGTON, DC; MR. SULTAN AL 
JABER, CEO, MASDAR INITIATIVE, ABU DHABI, UNITED ARAB EMIRATES; 
   MR. STEVE HEWITT, CITY ADMINISTRATION, GREENSBURG, KANSAS

                  STATEMENT OF DAVID GOLDBERG

    Mr. Goldberg. Thanks very much. Am I audible? Can you hear 
me? Okay, great.
    Thank you, Mr. Chairman, Mr. Sensenbrenner, and members of 
the committee. Thank you all for holding such an important 
hearing on such a critical set of interrelated issues and for 
inviting us to testify on the opportunity to harness the 
profound changes we see happening in the marketplace right now 
to the benefit of energy independence, climate stability, and 
America's prosperity.
    With your indulgence, I will summarize my written 
testimony, which I respectfully submit for the record.
    The Chairman. It will be included in the record.
    [The statement of Mr. Goldberg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Goldberg. Our nation today faces a number of very 
difficult challenges. The committee has taken on two of the 
greatest challenges--over-dependence on high-priced oil and 
climate change. Smart Growth America comes today with 
encouraging news. We can significantly reduce our nation's 
dependence on oil and shrink our carbon footprint, while 
helping Americans avoid high gas prices and the time they spend 
in traffic, merely by meeting the growing demand for 
conveniently located homes in walkable neighborhoods and by 
serving those neighborhoods with good public transit.
    Even better news: We don't have to wait for someone to 
invent green neighborhoods. We have the know-how right now to 
build them and we have since the dawn of civilization. It is a 
low-cost or a no-cost solution to oil dependence and climate 
change that comes with multiple benefits for our pocketbooks, 
for our environment, and for our quality of life.
    Communities and private sector developers across the 
country have rediscovered this approach to building in recent 
years, creating neighborhoods and towns according to 10 
principles that have come to be labeled as Smart Growth. I 
won't read the whole list here. You can see it in my written 
testimony.
    The label itself, Smart Growth, is not important. The goal 
is what is important, and that is to help people find homes and 
communities where they can accomplish more, while driving less, 
meaning they can spend less and they can emit less greenhouse 
gas.
    Creating walkable green neighborhoods requires building a 
mix of housing types, such as stand-alone houses, apartments, 
or townhouses within a short distance of shopping and job 
opportunities. It means re-using existing buildings in 
developed areas, whether those be former industrial sites, 
declining shopping centers, or blighted neighborhoods. It also 
means using green building techniques when we build new things.
    It means providing multiple ways to get around, public 
transit in addition to complete streets that serve cars, 
walking and biking. Above all, it means involving people, the 
people who live and will live in these places, in planning 
ahead for their community's development.
    The demand for homes in places that meet these principles, 
the neighborhoods where daily life requires significantly less 
gas consumption, has been growing for several years now, but it 
is exploding literally as we speak. Just yesterday, CNN, the 
Wall Street Journal and the Los Angeles Times all reported on 
this phenomenon. CNN reported, and you can find it on their Web 
site, that ``while the foreclosure epidemic has left 
communities across the United States overrun with unoccupied 
houses and overgrown grass, underneath the chaos another trend 
is quietly emerging that over the next several decades could 
change the face of suburban American life as we know it.''
    The story notes that 40 percent of home-seekers say they 
want to live in walkable urban neighborhoods. A consumer survey 
that we at Smart Growth America did with the National 
Association of Realtors a couple of years ago found that six in 
ten prospective buyers are looking for close-knit neighborhoods 
close to work.
    The Wall Street Journal yesterday also had an interesting 
story headlined ``Demographic Changes, High Gasoline Prices May 
Hasten Demand for Urban Living.'' That story noted that 
``transportation is the second biggest household expense after 
housing. Distant suburbs where housing growth was predicated on 
cheap gas have experienced the greatest decline in home 
values.''
    The L.A. Times story quoted a Pasadena real estate agent 
who noted that ``compared to 2 years ago, home-seekers are 
staying in closer proximity to their jobs. They are more 
focused on the neighborhood they want.''
    And lest one conclude that this is only a big-city 
phenomenon, Maine's leading newspaper a couple of days ago had 
a front-page story headlined ``Mainers begin making life 
changes that could slow urban sprawl to a crawl.'' This is in 
Maine, which is not exactly a heavily urbanized state.
    Families in areas with good transit and walkable 
neighborhoods pay less than 10 percent of their income for 
transportation on average, while families living in areas with 
fewer transportation options pay upwards of 25 percent of their 
income and often much more than that. Access to transit can 
reduce the need to have a car, which would save a family $6,000 
a year just on that, and a 30 percent reduction in 
transportation-related carbon-emissions whether or not they own 
the car simply by driving less.
    The measures I have talked about here and in my written 
testimony apply in towns large and small, in cities, in metro 
areas, and even rural areas. For smaller cities, this can mean 
reclaiming existing Main Streets and ending the tendency to 
hollow-out our towns, our business districts, and spread the 
development across the countryside. In larger cities, it can 
mean providing millions more Americans with more transportation 
and living options.
    Americans who live within a half-mile of rail 
transportation----
    The Chairman. If you could summarize, please?
    Mr. Goldberg. Yes. Americans who live within a half-mile of 
rail transit drive significantly less by their own choice. On 
average, one-third use that transit to commute and they drive 
one-third less than other people do. The upshot here is that we 
need to build more homes within reach of existing transit and 
we need to expand public transportation to more areas.
    I hope during the questions I will have an opportunity to 
expand on some of these thoughts. Thank you.
    The Chairman. Thank you, Mr. Goldberg, very much.
    Our second witness is Steve Winkelman, who is the 
transportation director of the Center for Clean Air Policy. Mr. 
Winkelman, along with Mr. Goldberg, is an author of the book 
``Growing Cooler,'' a recent and comprehensive report on Smart 
Growth and global warming. We welcome you, sir, and whenever 
you are ready, please begin.

                  STATEMENT OF STEVE WINKELMAN

    Mr. Winkelman. Mr. Chairman, Ranking Member Sensenbrenner, 
members of the committee, good morning. I would like to thank 
you for the opportunity to testify before you today.
    My name is Steve Winkelman. I am the director of the 
transportation and adaptation programs at the Center for Clean 
Air Policy, also called CCAP, a Washington, D.C. and Brussels-
based environmental think tank. I respectfully request that my 
full statement may be part of the record.
    The Chairman. Without objection, it will.
    [The statement of Mr. Winkelman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Winkelman. I will summarize it now.
    CCAP helps governments at all levels design and implement 
energy and climate solutions that balance economic and 
environmental considerations. CCAP conducts technical and 
economic analyses and facilitates dialogue among stakeholders 
from government, industry, and environmental groups to craft 
practical and effective solutions.
    For example, CCAP's VMT and climate policy dialogue brings 
together four secretaries of transportation from four different 
states, two directors of metropolitan planning organizations, 
members of local government, federal agencies, industry and 
environmental groups to advance Smart Growth policies within 
climate policy and to integrate climate considerations into 
transportation policy.
    If we could go to the next slide, please?
    Transportation sector CO<INF>2</INF> emissions account for 
almost one-third of U.S. CO<INF>2</INF> emissions and are 
growing rapidly. CCAP characterizes transportation emissions as 
a three-legged stool, as you can see in the graphic here. The 
first leg is vehicle efficiency. The second is fuel 
characteristics. And third is vehicle miles traveled, or VMT, 
which is a measure of how much we drive each year and the wacky 
acronym of the day.
    Energy and climate policy discussions to date have focused 
exclusively on the first two legs of the stool--vehicles and 
fuels. With my testimony this morning, and the full written 
testimony, I aim to demonstrate that it is both necessary and 
beneficial to address the third leg of this stool--VMT.
    As indicated in this graph on the next slide, 
transportation CO<INF>2</INF> emissions depicted here in blue 
are 25 percent above 1990 levels, and climate protection 
requires reductions to 30 percent below 1990 levels by 2030. 
That is the orange line in the graphic. If you go to the next 
slide, we can see that the 2007 energy bill with its new 
standards for vehicle efficiency and fuel requirements would 
reduce transportation CO<INF>2</INF> emissions to 20 percent 
below 1990 levels in 2030. You see the blue line is now on top 
of the orange line, right on path to climate protection.
    However, if you go to the next slide and watch the red 
line, the U.S. Department of Energy forecasts a 50 percent 
increase in driving, bringing CO<INF>2</INF> emissions back up 
to current levels and wiping out the benefits from the energy 
bill. Climate protection will clearly require reductions in all 
three legs of the stool. We cannot afford to ignore VMT.
    I am the co-author of the book ``Growing Cooler: The 
Evidence on Urban Development and Climate Change,'' in which we 
review the empirical evidence on the relationships between 
land-use development patterns and travel activity. We find that 
people drive fewer miles in places where things are closer 
together and where they have more travel options such as 
walking and transit.
    In my written testimony, I provide some examples from 
places with successful and promising policies for slowing VMT 
growth. The Sacramento region is especially compelling because 
they have calculated that Smart Growth policies can reduce 
infrastructure costs by $9 billion by 2050 and reduce consumer 
fuel expenditures by more than $600 million per year.
    With high gas prices and a robust federal climate policy 
debate, the timing has never been better to increase travel 
choices, thereby lowering consumer fuel expenditures and 
reducing transportation emissions. CCAP has therefore developed 
a policy proposal for a federal incentive program that requires 
state and local governments to develop goals to slow VMT growth 
and greenhouse gas emissions.
    Allowance values from a cap-and-trade system would be used 
to fund goal development and implementation. Importantly, CCAP 
believes that there is no one-size-fits-all approach and that 
solutions must be developed locally and not dictated by the 
federal government.
    We anticipate that a diversity of measures applicable to 
urban, suburban and rural areas ranging from in-fill 
development, transit improvements, signal timing improvements, 
and intermodal freight will be required. CCAP recommends a 
bottom-up discovery process in which states and local 
governments conduct scenario analyses and engage stakeholders 
to determine goals appropriate to local conditions.
    Finally, CCAP sees federal climate policy as setting the 
stage for climate-friendly transportation policy, what we refer 
to as green-TEA. Federal transportation policy actually 
contributes to VMT growth because key funding formulas reward 
VMT and fuel consumption. The challenge is how to ensure that 
the next $300 billion we spend on transportation infrastructure 
actually builds upon the savings in the energy bill instead of 
wiping them out.
    The new federal efforts that CCAP recommends to improve 
travel choices for all Americans can reduce greenhouse gas 
emissions, lower consumer fuel expenditures, and strengthen the 
economy.
    Thank you for your attention, and I look forward to your 
questions.
    The Chairman. Thank you, Mr. Winkelman, very much.
    Our next witness, Gregory Cohen, is the president and CEO 
of the American Highway Users Alliance, which is an alliance of 
businesses and nonprofit corporations dedicated to highway 
funding and maintenance. Prior to joining the alliance, he 
served on the staff of the House Transportation and 
Infrastructure Committee.
    We welcome you, sir. Whenever you are ready, please begin.

                   STATEMENT OF GREGORY COHEN

    Mr. Cohen. Thank you, Chairman Markey and members of the 
committee. I appreciate being allowed the opportunity to 
provide an alternative view in the spirit of debate. I am 
honored to be here to present testimony on highway needs, land-
use planning, and greenhouse gas emissions.
    A recent national survey of 1,000 likely voters found the 
following: 88 percent feel that congestion relief is needed; 76 
percent see cars, roads and bridges as a benefit to society; 
and 69 percent say congestion relief is a better environmental 
policy than policies aimed at reducing driving.
    We urge this committee to promote greenhouse gas solutions 
that are cost effective and provide benefits to the 
overwhelming majority of people whose transportation mode of 
choice is the personal automobile. The IPCC recommends finding 
solutions that reduce emissions at a cost of $50 or less per 
ton. By minimizing the cost of carbon removed, we believe you 
will find solutions that are effective and fair, rather than 
based on ideology, the latest planning fad, or special interest 
lobbying.
    Among surface transportation modes, highway investments 
have a dominant role to play both in reducing wasted emissions 
and fuel. Traffic congestion results in nearly three billion 
gallons of wasted fuel each year. With each passing year that 
it is not addressed, that waste grows. Yet over 20 years, a 
strategic congestion relief program could reduce on-site carbon 
emissions by an average of 77 percent, save 40 billion gallons 
of fuel, and reduce carbon emissions by 390 million tons.
    Although VMT would increase, carbon emissions would be 
reduced. This demonstrates that VMT is not a valid measure of 
greenhouse gas nor pollutant emissions. Instead of attempting 
to reduce travel, a national policy to reduce the time wasted 
in traffic congestion would be an effective win-win, both for 
people and the environment.
    Some have proposed that the United States should make Smart 
Growth a national land-use policy. Some even believe that the 
federal government should try to direct people where to live 
and how to travel, and particularly how to commute to work. Yet 
emissions from commutes and cars and light trucks represent 
only one-sixth of transportation emissions and only about 5 
percent of the total U.S. carbon emissions.
    Even a tripling of commuter transit--and I don't mean to 
speak against transit--but even a tripling of commuter transit 
would only reduce those emissions by a fraction of a percent. 
Some have suggested that EPA should take over DOT's role in 
approving transportation plans to ensure that they promote 
Smart Growth concepts and reduce VMT. But such a plan would 
stop federally funded highway projects that already have been 
delayed in many cases by a decade or more, and create serious 
problems to freight mobility, deficient bridges, aging 
pavements, snarl and congestion, and most importantly, safety 
improvements.
    In fact, some travel reduction ideas actually increase road 
congestion and waste emissions. For example, Smart Growth 
advocates have found that doubling an area's density would 
reduce per capita VMT by 20 percent, thus twice as many people 
would drive 80 percent as much. Clearly, the result is more 
traffic, more congestion, increased travel time, and even some 
serious unintended consequences as response times would slow, 
trucking logistics would be more unreliable, and road rage 
would increase.
    But there are solutions that are more promising. Along with 
congestion relief, the great opportunity for mobile source 
emission reductions lies in fuel and vehicles technology. Even 
if VMT could be reduced dramatically, would it still be 
necessary in a future of lower zero-emission vehicles? With the 
new national CAFE standards and new congressionally authorized 
tax incentives, these technological solutions would allow for 
increased mobility and all of the economic and quality of life 
benefits that travel brings.
    Recent research suggests that hybrid vehicles will soon 
yield lower greenhouse gas emissions per passenger than 
transit. These new technologies are another win-win for people 
and the environment.
    When the House pursues greenhouse gas legislation, we ask 
that highway programs are treated fairly. After all, it will be 
highway users paying the increased fuel costs associated with 
the carbon tax, the cap-and-trade program, or a fuel tax. One 
idea is that the carbon or fuel tax paid by highway users at 
the pump be deposited in the highway trust fund and used for 
projects regardless of mode that reduce carbon emissions cost-
effectively.
    Like a tax or cap-and-trade proposal, it would also 
increase fuel costs paid by highway users, and some have 
suggested that cap-and-trade credits only be used for transit, 
bike paths, and VMT reduction projects. We are not aware of any 
data analysis that justifies this massive diversion of 
motorists' money. It appears to be simply a give away to 
special interests. Reality, rather than rhetoric, should be the 
basis for policy.
    In conclusion, we are ready to help reduce carbon 
emissions. We look forward to supporting congressional action 
to reduce traffic congestion and invest in fuel and vehicle 
technology, but we implore this committee to fully consider and 
reject the unintended negative consequences of a nationally 
mandated land-use or VMT reduction scheme.
    Instead of trying to socially engineer behaviors, let's 
provide the win-win solutions that allow people the freedom to 
live, work and travel as they wish. Embracing this freedom 
rather than restricting it preserves the American dream of 
opportunity and prosperity.
    Thank you.
    [The statement of Mr. Cohen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Cohen, very much.
    Our next witness, Dr. Al Jaber, is the CEO of the Masdar 
Initiative in Abu Dhabi of the United Arab Emirates. We thank 
you, sir. We thank you for coming that long distance to testify 
before the select committee today. Welcome.

                  STATEMENT OF SULTAN AL JABER

    Mr. Al Jaber. Chairman Markey, Ranking Member 
Sensenbrenner, and members of the committee, thank you for 
giving me the opportunity to testify on such an important 
issue. Sustainable development is essential to the United Arab 
Emirates and to Abu Dhabi in particular. It is integral to my 
company and personally important to me.
    Today's hearing helps illustrate our belief that 
aggressively addressing these fundamental issues can help bring 
communities together, even those as diverse as Abu Dhabi and 
Greensburg, Kansas.
    Let me begin with a brief overview. In April 2006, the 
government of Abu Dhabi established a new economic development 
program that is entirely dedicated to sustainable energy. 
Masdar is a multifaceted undertaking to address future energy-
related issues. The government of Abu Dhabi has committed $15 
billion to the Masdar initiative, and we are leveraging 
additional funds through partnerships and the private sector.
    Masdar includes investments in current technologies, new 
solar manufacturing plants, renewable energy infrastructure, 
and carbon-management projects. We are creating a one-of-a-kind 
research institute in Abu Dhabi, and developing Masdar City, 
the world's first carbon-neutral, zero-waste city.
    Given the subject of the hearing, I want to focus on Masdar 
City, which is really the centerpiece of the entire program. 
Imagine a city built in the desert that will house 50,000 
people, technology companies, a research institute, R&D 
facilities, light manufacturing plants, stores, schools and 
libraries, all powered by renewable energy.
    There will be no cars. People will move around on personal 
rapid transit, light rail, Segways, and bikes. A net of 
photovoltaic collectors will create shade along narrow streets. 
Green spaces will be fed with purified, recycled water. We 
expect that the city will be the blueprint for cities of the 
future.
    We will do this by completely re-engineering the way modern 
cities are built and use energy. In planning the city, we did 
not look at the cost of energy per kilowatt hour. Instead, we 
looked at the cost per square meter. Integrated design is a 
core element of our planning. It will help reduce energy and 
water demand to unprecedented levels.
    Specifically, Masdar City will require only 200 megawatts 
of power, instead of the 800 megawatts normally required by a 
conventional city of the same size. Desalinated water 
consumption will drop from 20,000 cubic meters per day to only 
8,000. And through intensive reuse and recycling, we will 
eliminate the need for millions of square meters of landfill.
    Masdar City will be more than just an efficient, 
environmentally friendly place. It will be a platform for long-
term innovation. Residents of the city will be part of a 
community that includes global leaders in business, academia, 
and finance who can collaborate on a common goal.
    When I travel, the most frequent question I get asked is: 
Why? Why would a major oil-producing country proactively seek a 
keyhole in the alternative energy space? The answer is simple. 
First, we want to reduce our own carbon footprint. The UAE 
ratified the Kyoto Protocol, and we must be prepared to meet 
future commitments to reduce emissions, while ensuring 
continued growth.
    Second, as part of our diversification and long-term 
economic strategy, Abu Dhabi seeks to be a developer and 
exporter of technology, rather than being an importer. We will 
continue to be a leader in the global energy markets, but go 
beyond hydrocarbons. We also believe we can act as a catalyst 
to encourage nations with greater human, technological and 
institutional resources to accelerate the adoption of clean and 
sustainable technology.
    We also see this as an opportunity to be a part of a 
growing business sector. According to the International Energy 
Agency, the world's energy requirements could grow by as much 
as 50 percent or more by 2030. We want to help meet those 
needs. That is why we are taking these proactive steps.
    Finally, I want to inform the committee about the 
significant contribution of American innovators. MIT is working 
with us to establish the world's first research-driven graduate 
university focused on sustainable energy, which is called the 
Masdar Institute of Science and Technology.
    Investments by the Masdar Clean Tech Fund include U.S.-
based DuraTherm, Enertech, Halosource, Nanogram Corporation, 
Segway, HelioVolt, and Solargenics. Colorado-based CH2MHill 
serves as program manager for the overall development of Masdar 
City, and there are more American innovators very much involved 
with the Masdar initiative.
    Things are happening fast at Masdar. We broke ground on 
Masdar City in February, 2008. Students are being enrolled in 
MIST. We invite you to come to Abu Dhabi and to see it all 
first-hand. I welcome our American friends and partners to join 
us.
    Thank you again for inviting me here today. I look forward 
to answering your questions. Thank you.
    [The statement of Mr. Al Jaber follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much.
    Now, we will move to our final witness, who is Steve 
Hewitt, who is the city administrator of Greensburg, Kansas. 
When this rural town in southwest Kansas was destroyed by a 
tornado last May, they chose to rebuild, not in the cheapest 
way, but the smartest way. Mr. Hewitt helped lead the charge to 
rebuild using energy-efficient building technology and green 
community principles. Greensburg intends to transform the wind 
that destroyed it into the power that will rebuild it.
    They recently received a sustainable cities award from the 
Financial Times and the Urban Land Institute, edging out all of 
the other communities in America. So that is quite a tribute to 
you.
    Whenever you are ready, Mr. Hewitt, please begin.

                   STATEMENT OF STEVE HEWITT

    Mr. Hewitt. Thank you, Mr. Chairman and distinguished 
members of the Select Committee. I am Steve Hewitt, the city 
administrator of Greensburg, Kansas.
    The Chairman. Move the microphone in a little bit closer, 
please.
    Mr. Hewitt. Again, thank you for the opportunity to speak 
today.
    I first want to start off with a small video about our 
community.
    [Video played.]
    Mr. Hewitt. Out of crisis emerges opportunity. As you saw, 
on May 4, 2007, an EF-5 tornado that was nearly two miles wide 
ripped though a community that was approximately 1,500 
residents and destroyed nearly everything, from the schools to 
downtown to government buildings to infrastructure.
    Before the storm, this community was a community trying to 
get by, a rural community in western Kansas basically 
struggling to make sure that it can live and survive every day. 
What has happened since May 4 of 2007 is an opportunity. 
Through detailed planning, we now have an opportunity to plan a 
new community.
    Though planning, we are blessed with an opportunity to 
create a strong community devoted to family, fostering business 
and working together for future generations. Future generations 
and future decisions will come directly from our planning.
    We are focused on goals such as community, family, 
prosperity, environment, affordability, growth, renewal, water, 
health, energy, wind and our environment. We see this as an 
economic development tool as well.
    I cannot compete as a small town with much larger cities 
around our area. However, though, we see sustainability in the 
direction to build a community green as an opportunity to 
foster new businesses and green-collar jobs, something that we 
feel is smart. Building back a community fiscally responsibly 
and being smart with your tax dollars is building green. 
Sometimes it is a struggle, but it is the smart thing to do.
    In good decisions on infrastructure, buildings, and energy 
plan, we want to be 100 percent renewable 100 percent of the 
time. We have a wind energy plan that will feed our energy in 
our community. And then we will buy energy from the grid when 
wind is not blowing that is renewable 100 percent of the time. 
We think that is innovative.
    To prove our point, our city council passed a resolution 
that was devoted to making sure all our community buildings are 
built at the highest level of sustainability. We feel like our 
opportunity is to show the world that building a community 
smart, with walkability, connecting our community, and 
sustainability, is the right decision with our tax dollars. It 
is smart for future generations, productivity, energy, and 
health. It is the right thing to do.
    We hope our decision to go green and to build a sustainable 
community will help future communities hopefully do the same 
thing.
    In conclusion, we are trying to be a model sustainable 
community that creates opportunities that didn't happen before 
that do happen now. We accept this opportunity. We are blessed 
with it and we hope to build a community that is better in the 
future.
    Thank you very much.
    [The statement of Mr. Hewitt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Hewitt, very much.
    We thank all of our witnesses.
    Now, we are going to turn to questions from the select 
committee members. The chair will recognize himself.
    Mr. Hewitt, you have brought us one of the most 
inspirational stories that I think Congress has ever heard. 
Rather than leaving, the community has decided to stay and to 
rebuild and create a model for the United States and for the 
rest of the world in using green technologies.
    What is the role that the federal government is playing in 
your redevelopment of the community using these green 
principles?
    Mr. Hewitt. Unfortunately, when building the community 
back, it is expensive. When you make smart decisions, the up-
front costs are obviously a percentage higher. But the long-
term savings are evident, and you can see those. We have been 
told by some agencies that they will not fund our rebuilding 
efforts at the highest level of sustainability. It doesn't make 
sense to them, and to be a little bit more moderate.
    Unfortunately, that is not our direction, so we have gaps. 
We are still going to fill those gaps. We would like to 
partner-up with the government so that as communities rebuild 
or try to grow, that any tax dollars they use, it is the smart 
decision to build it sustainable.
    The Chairman. So what you are saying is that there are some 
federal agencies that don't want to help you to reach the 
platinum level, the best level of energy efficiency in the 
buildings that you are constructing. Is that correct?
    Mr. Hewitt. That is correct. Let me be very clear. The 
government has been very helpful and they will continue to be 
helpful in the future in our rebuilding efforts. However, our 
decision to build platinum, the LEED platinum, the highest 
level you can build in sustainability, has come with resistance 
from certain agencies.
    The Chairman. What I would recommend to the members of the 
select committee is that we write a letter to those federal 
agencies and we urge them to help Greensburg reach the highest 
levels of efficiency so that it can be a model to the rest of 
the country. I would urge the members. I am going to circulate 
a letter so that we tell the federal agencies that if we have a 
community willing to pay this huge price in terms of their 
personal commitment after the community is destroyed, the least 
that we can do as a federal government is to help them to reach 
the best standards that our country can provide.
    If they are willing to be the leader, I think that we 
should have a federal government willing to follow. So I am 
going to write that letter and circulate it to the members so 
that we send it off to the federal agencies.
    What has been the most extraordinary result, Mr. Hewitt, of 
this decision that you have made to rebuild Greensburg as the 
greenest community in the United States?
    Mr. Hewitt. I think the fact that a community that was 
struggling and was unsure, it would be very easy to pick up 
your insurance check and move to a community that was a 
community. There is no community. As you can see, it was 
completely destroyed. But we have all ages and all levels of 
different people that want to come back. They are vested in 
their community. They want to see it rebuilt.
    One example is a few different senior couples, and they are 
retired--it would be very easy for them to leave town and go to 
a community where their kids or grandkids were at. It is 
exciting to know that they have committed to come back to the 
community and build a home that is energy efficient and green.
    There are also young students that are now talking about, 
with the new opportunities and economic development and green 
jobs, they want to go to school and come back and work in their 
community. It really is changing the face of rural America. 
Rural America has struggled because of being away from 
supplies, and the cost of fuel. But we still believe it is the 
right thing and the right direction because the long-term 
savings are our main goal.
    The Chairman. And what lessons do you think other rural 
communities in America can learn from Greensburg's experience?
    Mr. Hewitt. I believe the biggest thing is that as a 
community, you decide the direction. Through community 
planning, and I believe Smart Growth is evidence of that, you 
decide the direction and you decide how you want to see your 
community rebuild. By taking the decisions we have done, you 
can have community wind. You can have new energy to help power 
your community.
    You can use sustainable designs in your government 
buildings, as well as your schools, your hospitals, so that you 
are not reliant on so many outside sources. You can shop local. 
You can spend your tax dollars locally. I think that can help 
revitalize rural America which is struggling so much.
    The Chairman. Well, I thank you, Mr. Hewitt, for your 
leadership and for everyone's leadership in Greensburg. I think 
because of the leadership of the citizens of your community, 
Greensburg is going to become the most appropriately named 
community in the United States and an example to every other 
community that wants to go down a new energy path. We thank 
you.
    I now turn and recognize the gentleman from Oregon, Mr. 
Walden, for his questions.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Hewitt, I want to follow up with you on a couple of 
points. Obviously, I know it makes sense in many cases, having 
been in small business 21 years, to make an up-front investment 
that may be more expensive in the short term, but pay off real 
dividends in the long term.
    Can you tell me, as you approach rebuilding Greensburg, the 
differential in construction costs from traditional rebuilding 
to the platinum level that you are trying to achieve? What is 
that up-front differential? And then what is the payback 
period?
    Mr. Hewitt. What we are seeing at this point in time is 
that the up-front costs range from--well, typically, it runs 
from 3 percent to 5 percent additional for green building up 
front, and that payback is anywhere from 8 to 15 years 
depending on the level. What we are seeing in rural America is 
that that cost is actually running closer to 10 percent to 15 
percent and higher in some cases.
    Mr. Walden. Which higher--on the payback period or on the 
construction?
    Mr. Hewitt. Up-front, I am sorry, on the up-front costs. 
The payback period then will be extended out to possibly 20 
years. But I want to make something clear--that we are not 
building 20-year buildings. When we talk about government 
infrastructure, we are talking infrastructure that will last 
100 years, or 100-year decisions. So we still see it as an 
excellent payback.
    But yes, there is a long-term payback and an up-front cost 
that is significantly higher in some cases in rural America.
    Mr. Walden. And then let me ask you about the energy costs. 
If I heard you correctly, you said that you are going to put in 
wind energy generation, sell that into the grid as a surplus, 
but then buy only green energy off the grid. Is that for 
everybody in the community or just the government buildings?
    Mr. Hewitt. That is for everyone in the community. We own 
the electrical utility. We produce our wind and sell it to the 
grid and then through a power agreement we purchase renewable 
energy back for all our citizens.
    Mr. Walden. And how have you been able to negotiate the 
sale into the grid of the power--at what rate? And then what is 
your expected costs coming off the grid for green energy only? 
Will that be all wind?
    Mr. Hewitt. No. It would actually be wind and some hydro as 
well. How we are doing that is through our local power pool. 
Our pool has made a commitment they are willing to buy the wind 
from us. We are currently negotiating at what rate they will 
purchase that from us. We will purchase that back from them 
because they have the ability to sell us hydropower when the 
wind is not blowing. They want to increase their renewable 
portfolio as well as we do.
    So it is a partnership that continues. We hope to wrap that 
up. But we feel very confident in our early negotiations that 
this is definitely a community wind project that can be 
replicated in other communities.
    Mr. Walden. So how many megawatts of wind power do you 
anticipate generating?
    Mr. Hewitt. Well, our community is a small community. We 
are currently going to start with probably four megawatts of 
power for a small community of 1,500 people.
    Mr. Walden. And four megawatts will satisfy all the energy 
needs of your community?
    Mr. Hewitt. At this point in time, yes. Obviously, we hope 
to grow, but at this point that will satisfy our needs.
    Mr. Walden. And that is the plate power production, not the 
firm load, right?
    Mr. Hewitt. That four megawatts would handle us at a peak 
load. Our average load before the storm was closer to three 
megawatts, but to handle larger loads, we will have four 
megawatts.
    Mr. Walden. Okay. So the power that you would purchase 
would be a mix of hydro and wind energy?
    Mr. Hewitt. That is correct.
    Mr. Walden. In the Northwest, as my friend and colleague 
from Oregon can tell you, that is a lot of the mix we have, 
with the hydro system that we have, and it is upwards of I 
think 60 percent of our power is hydro, and then we have been 
very aggressive in our wind energy development. They work well 
together. The hydro almost works as a battery, because you can 
store some of the water, and then when the wind isn't blowing, 
you can release a little more and rely on the hydro.
    But we still have to back that up with peak generation 
power from natural gas and obviously a lot from coal. So your 
system wouldn't use either natural gas or coal, then?
    Mr. Hewitt. That is our goal--not to use any fossil fuel or 
coal.
    Mr. Walden. That is terrific. That is terrific. Okay.
    Thank you, Mr. Chairman.
    I appreciate your input and good luck in your 
reconstruction effort. That is a monumental task and a great 
set for the rest of the country to observe and learn from. 
Thank you.
    The Chairman. Great. The gentleman's time has expired.
    The chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you.
    Mr. Hewitt, I just wonder what your calculations are going 
to look like when the evidence is that oil prices are going to 
continue to go up. There will be costs associated with carbon 
no matter who is elected president. There is an effort to 
control or have a carbon-constrained economy. And we are 
looking at utility rates for gas and electricity that are going 
up dramatically.
    I am wondering what your calculations are going to look 
like. I would be willing to bet you a lunch that the payback 
period is actually going to get shorter, not longer, as 
technology is enhanced, and we are looking at models like Abu 
Dhabi. What we are looking at in our community with the green 
buildings, the premium that is attached to it, the payback 
periods appear to be getting shorter. So I am rooting for you 
to continue.
    I deeply appreciate the chairman's suggestion that we 
encourage the federal partners to get real about these 
opportunities, particularly because you have been sort of a 
show-piece. But I think that it is a profound policy adjustment 
that we ought to explore because natural disasters are 
escalating. We are seeing more of them here. The evidence from 
climate change is that the horror that was visited on your 
community is something that we are going to be seeing more, not 
less, even if we start turning this carbon ship around.
    So, Mr. Chairman, I think this is a policy adjustment that 
bears serious analysis.
    I appreciate your bringing it forward, Mr. Hewitt.
    I must say that I am impressed with the model of Abu Dhabi. 
We are having a number of people from Oregon that are traipsing 
over and being part of the team to encourage the streetcar as 
part of your long-term formulation, and we look forward to 
having a chance to accept one of the invitations we have been 
receiving to look at it on the ground.
    Mr. Chairman, I was somewhat perplexed by the testimony 
from Mr. Cohen who is suggesting something that nobody is 
suggesting, that the United States government be some sort of 
mega-zoning board, but instead start changing the incentives 
and the priorities, how we behave as a government.
    I have legislation that I will circulate in draft form to 
each of the members of the committee that talks about a VMT 
land-use strategy on the part of the federal government, to get 
your feedback before it is introduced, because I think it is 
absolutely not anything you are talking about, Mr. Cohen. I 
don't know people that are making that argument that the 
federal government--it is not something that we have done in 
Portland, Oregon, as you are well aware.
    We have given people choices in Oregon, but the most 
effective trip is the trip not taken. If we can enhance urban 
environments, if we can deal with the problems of small-town 
America, everybody is going to benefit. But I will circulate 
that to you and each member of the committee, and invite your 
feedback.
    But I wondered if I could just invite comment from Mr. 
Goldberg or Mr. Winkelman about the federal policies that you 
think ought to be adjusted to be able to promote that smarter 
growth. I mentioned the federal government and the goofiness of 
GSA and INS locating something miles from the central city. Do 
you have other thoughts about policies and adjustments that 
would reinforce what you are saying?
    Mr. Winkelman. As I mentioned, I think one of the biggest 
opportunities is looking at the big pot of money that we will 
spend on transportation infrastructure. The zeitgeist is really 
to look at system performance, performance metrics. There have 
been a couple of national commissions looking at this set of 
issues. So having greenhouse gas emission considerations be 
part of that I think is key.
    Also, if we are going to ask state and local governments to 
do something new, they need the proper tools, resources and 
data and models to plan, implement and measure. So 
transportation spending is a key influencer of land-use and 
therefore VMT. So it is a critical part of the solution.
    Mr. Blumenauer. Mr. Goldberg.
    Mr. Goldberg. Certainly I appreciate Mr. Blumenauer's 
comments, noting that no one has called for a federal mandate 
or federal dictate to the local government. We strongly believe 
in local home rule and in community empowerment, and 
communities being able to make their own decisions about how 
they grow. We strongly encourage them to think ahead about that 
growth and not just let it happen to them.
    We would back up also the post-World War II era when we 
came out of World War II and we adopted a whole lot of policies 
that basically put us on a path of car dependence. We have been 
going along that route now for several decades, and the 
headlines I was reading to you before demonstrate we have 
reached a point where that is not working anymore. The federal 
government now can back away from promoting some of those 
policies and begin to support the communities that are 
exploring ways.
    In fact, the federal government already has done some of 
that through the EPA's Smart Growth division, supporting 
communities who are exploring innovative ways to accommodate 
their growth in ways that make a community stronger and 
preserve their existing assets.
    Mr. Blumenauer. Thank you, Mr. Goldberg.
    I would just note, Mr. Chairman, in closing, that after 
World War II, FHA would not finance developments like the 
livable community that you grew up in. It was single-home 
detached housing, not mixed-use, for instance. So in effect, 
our financing mechanism doomed people to a fall-in development 
pattern and the congestion that concerns Mr. Cohen's members.
    Thank you.
    The Chairman. Okay. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Al Jaber, I am intrigued about Masdar City. I have seen 
shots of it from the air on television. It is one of the most 
amazing feats. Congress will need to pass something to have a 
ninth wonder of the world. I am going to introduce that bill on 
your behalf. [Laughter.]
    It would appear to me that Greensburg, Kansas may be the 
only city in the nation that is moving toward what you are 
doing. I am just curious about the vision of that city. 
Something you said in your statement, which was I think 
intriguing also, and that is that this will be a platform for 
long-term innovation, which means what is being done now is not 
the end of where you are going.
    Is there a vision of where you ultimately will go in terms 
of the development of Masdar City? Has someone already 
envisioned 2030?
    Mr. Al Jaber. We have a clear objective through the 
development of Masdar City. One objective is to make renewables 
become good parity as soon as we can. That is one clear 
objective we have. Our other objective is that by developing 
Masdar City, we want the city to become a model that can be 
affordable, applicable and transferable to other nations and 
other cities around the world.
    It will be a long-term investment and it will be a platform 
for long-term innovation. What we are experiencing today is 
that the commodities that we are integrating in the Masdar City 
development are actually available, but with the current 
commodities that we have access to today in the market do not 
actually achieve our objectives of making it today a zero-
carbon emission city. But with the integration of all the 
technologies together, we will be able to achieve a carbon-
neutral city.
    Now, our objective is by implementing these technologies, 
by deploying these technologies on the large scale of a city 
like Masdar City, is to make these technologies, once 
implemented, produce zero carbon emissions from day one. That 
is a long-term objective, but it is something that we are very 
much committed to developing.
    Mr. Cleaver. We have an ideological discussion any time we 
talk about anything here in this country. We don't want the 
government to get involved. And then there is the let's protect 
the businesses. Your country is rich in oil. I am wondering if 
the oil barons are fighting the concept, saying that the 
government is trying to tell people how to live and where to 
live and so forth.
    Mr. Al Jaber. As a matter of fact, what we are finding is a 
phenomenal positive response and support, as well as commitment 
from the senior leadership. They see a natural extension for 
our involvement in the global energy market. They see a logical 
step for us to venture into this. This is considered to be a 
nation-building exercise that will continue our environmental 
stewardship, as well as our leadership in the global energy 
markets.
    Mr. Cleaver. Is it possible that you could export to our 
country some of your business people to conduct workshops with 
the big oil companies, sing kum-ba-yah, and then listen to what 
you are experiencing? I am being facetious, but in a way I am 
just so awed by what is going on, and then I look at what we 
are doing and the push-back we get on everything related to the 
real need for us to change the way we live here in this country 
and change our policies, and look toward the future.
    So I appreciate very much your presence here today. I 
apologize. I am running back and forth between committees, and 
I will return, but I just have to have an opportunity to 
discuss with you what is going on and what I think is one of 
the most amazing projects in the world right now.
    Mr. Al Jaber. Thank you.
    Mr. Cleaver. I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Ms. Solis.
    Ms. Solis. Thank you.
    I want to thank the panelists for your time and your 
commitment, especially to the Honorable Steve Hewitt for coming 
out and being so brave to tell us exactly what your community 
is doing.
    I just wanted to mention that in the area that I represent, 
it is very heavily low-income and struggling all the time. We 
almost feel like we don't have enough resources to do anything 
either. But I give credit to you the political will, the 
courage that the residents have there, and you in terms of 
foresight, to see something like that happen, that renewable 
energy would really be a part of the community.
    I run up against some of our local schools who are now 
passing bonds, using that money to restructure and restore old 
school buildings, but are somehow not able to utilize the 
highest quality renewable technology to make their schools 
green. So we do have a problem with a lot of our agencies, as 
well as some of our state and local agencies that are not also 
flexible in terms of allowing for people to hit that gold 
standard. I know that that is going to be a challenge for us.
    You have already been asked how the federal government 
might be able to help, and I am more than happy to help do that 
as well. I am very intrigued by your thought about creating 
green-collar jobs. You know, last year the president signed 
into law in December a bill that would help provide for $125 
million.
    It hasn't been appropriated yet, but it would be helping to 
single-out communities like yours that would be eligible for 
funding so that we could have a pathway to careers that allow 
people then to come back home and actually those that want to 
stay there can get into a job career that provides incentives 
in the solar energy area, renewable energy, biofuels and 
everything. I just wondered if you are aware of that as of now.
    Mr. Hewitt. I wasn't aware of that exact bill, but I will 
definitely look into that. We are looking for incentives to 
bring in the biofuels and the renewable products that can be 
manufactured in our community. Thank you very much.
    Ms. Solis. Right. Thank you.
    And to Mr. Cohen, I didn't hear anything about some other 
models that have been used by the federal government. One as of 
late that is trying to be imposed upon L.A. County and parts of 
San Bernardino is this whole issue of congestion pricing. I 
just want to get your thoughts if you have any idea if that is 
one of the ways that we should be going to try to change 
behavior and convert our HOV lanes to toll lanes.
    Mr. Cohen. My view is that we should not price existing 
lanes that have been paid for with taxpayer dollars, but that 
we should consider tolling and pricing for new capacity. If you 
have an under-utilized HOV lane, then perhaps it might be a 
better use of space to make it a hot-lane and allow HOV riders 
to ride free and others to pay a toll as long as you keep the 
road moving.
    But we strongly oppose the administration's efforts to toll 
the Interstates, cordon price areas of town. I think it is 
particularly painful on the poor, those who don't have the 
luxury of choosing when they go to work. Frankly, I think that 
the administration sometimes feels that many trips are not 
important, but when you ask people who are taking those trips 
is your trip was important, they feel it was. So I would be 
opposed in general, with some exceptions, to congestion pricing 
of our existing capacity.
    Ms. Solis. Thank you.
    Mr. Al Jaber, I wanted to just ask you, I don't know much 
about the area that this planned renewable community is being 
structured, but I would like to get an idea about what the 
economics are there and the wealth, and what revenue is being 
used to help sustain this and to provide for the growth there. 
I mean, where is that revenue coming from?
    Mr. Al Jaber. Well, as you know, the Masdar City 
development is being seeded by the government of Abu Dhabi, and 
we are leveraging those funds with international partnerships 
through the private sector companies that are interested in 
being part of the Masdar initiative.
    Ms. Solis. When you say ``the government,'' do you mean 
also that oil revenue is also being used then to help provide 
for this infrastructure?
    Mr. Al Jaber. What better investment would we ever have to 
invest oil revenues into securing the future energy?
    Ms. Solis. I would hope that that is something that other 
partners in the Arab League would also look at and adopt.
    And then one question I have is also the creation of 
opportunities for people to get into these kinds of 
technologies. I am really looking more at your labor force, 
because you have a very growing, diverse population, and in 
many cases I understand you have to import labor. Is that the 
case here, where you had to import labor to help structure this 
facility? Or did you have an ample labor force already 
available?
    Mr. Al Jaber. Well, the construction is going to happen 
with existing companies that already have access to their labor 
workforce within Abu Dhabi and the United Arab Emirates and the 
DCC countries. The way the city is going to be structured is 
going to be very sustainable from day one. We are building our 
own sustainable labor workforce housing that is going to be 
absolutely sustainable.
    Ms. Solis. Okay.
    I don't know if I am over. Do I still have 1 minute?
    I wanted to ask Mr. Goldberg, you know, some of our smaller 
communities really are trying their hardest to focus on Smart 
Growth. In fact, the community I am thinking about right now is 
an older 1930s community that is actually revitalizing two-
story buildings that have now been reinforced. They were brick, 
actually, which isn't great for California because of 
earthquakes, but they have been able to restructure that and 
really create kind of a transit and more mobile community for 
seniors.
    Can you maybe elaborate on some of those schemes that have 
actually been working well? How are they able to negotiate 
zoning and things like that? Sometimes you get a whole lot of 
folks that say NIMBY, I don't want this to happen; I don't want 
more people coming into my community.
    Mr. Goldberg. Well, it can be difficult many times for 
developers and many developers around the country are trying to 
help these areas revitalize and become more walkable and meet 
this demand that I mentioned before.
    In many places, we have a set of zoning codes that were 
actively promulgated by the federal government back in the last 
century that mandate the separation of uses that says that the 
houses go over here, apartments go over here, or maybe they are 
not even allowed, and shopping goes over here, schools and 
businesses and all are completely separated so that we have to 
drive from one to the other.
    Actually, it can take a series of variances and many, many 
meetings and many opportunities for the community to speak out 
in order to get these changes done.
    What has worked very well in many communities is to think 
ahead and to say, all right, the denser development, the 
walkable neighborhoods, they go here. Here is how we want them 
to look. And over here, if it is a single-family neighborhood 
that we don't want to change, it stays that way.
    So then developers know where to go, and you make it easier 
for them to do what you consider to be the right thing. The 
icing on the cake is if you also happen to have the transit 
investment there that makes it really work for people.
    Ms. Solis. Right. Thank you.
    Mr. Blumenauer [off mike].
    Ms. Solis. I would also like to ask our next speaker, 
Steve, if you could maybe elaborate also, Mr. Winkelman, 
regarding Smart Growth. I mean, it is something that is very 
timely. In fact, the California state legislature is proposing 
giving out special funding for targeted communities who 
integrate transit villages and Smart Growth. I just want to get 
your reaction to that. What other states are doing that? I 
think Oregon is or Oregon has, and others that are innovative, 
but what can we do to help incentivize some of our states?
    Mr. Winkelman. Thank you. Actually, a couple of months ago 
I testified to the California Resources Board on this set of 
issues. They come to the same set of conclusions as I lay out 
in my graphs that basically you can't get there from here 
without dealing with vehicle miles traveled.
    One of the points, going to your last question to David in 
terms of local zoning, local governments need tools to change 
zoning. They may have one person in their zoning office who 
needs model code, needs some help to do things that people want 
and to engage the community to understand this. If we really 
want to do this, we need to provide the right tools and 
resources.
    So there are a host of policy measures that can help, 
ranging from local, state and regional. California has these 
blueprint planning grants starting from the Sacramento region's 
planning efforts, where a community does a visioning process 
that says how can our community grow, and what will that means 
for things that people care about--congestion, air quality, how 
much they spend on fuel.
    One of the interesting things, if we look at cost and how 
the federal government will spend money on climate change, I 
calculate for the Sacramento region a negative $200 per ton 
CO<INF>2</INF> from the Smart Growth policies. ``Negative 
cost'' means that it is a net savings for society with reduced 
infrastructure costs, reduced costs. If you look at carbon 
capture and storage, $30 a ton; ethanol, $200 a ton.
    So if we ask the climate question for new things that we 
build or plan and say what does that do to emissions, we will 
get very far and find common sense solutions that actually can 
reduce costs.
    Ms. Solis. Do either of you have an idea of how this model 
would work in, say, low-income and depressed communities that 
are really on the edge there? If there are any models out there 
where you have seen this change, this metamorphosis that has 
actually taken place. Because that is really I think something 
that a lot of members of Congress are trying to grasp is how 
can we revitalize our low-income communities that continue to 
kind of be out there on the edge and not really have the tools 
to prepare for this.
    Mr. Goldberg. Well, a couple of things need to happen. One 
is that we have had a tradition of low-income people isolated 
in areas of poverty. We have I think begun to address a lot of 
the policies that caused that to happen, but we haven't 
addressed them all. One of them is the habit of zoning out 
people from certain areas and not allowing to be built the 
kinds of housing that would support them.
    The other aspect is giving them access to jobs and making 
sure that they have the transportation that actually works for 
them. That means that they don't have to own and maintain a car 
or multiple cars in a low-income household to be able to get 
around.
    Ms. Solis. So there almost has to be a plan overall that 
integrates all that so that it is built in from the beginning.
    Mr. Goldberg. We are seeing around the country so much 
demand now for closer-in housing that we are going to have to 
figure out some really creative ways to provide housing that is 
affordable, not just to low-income people, but also to teachers 
and firefighters and people who are making working-class wages.
    Ms. Solis. Right. Okay. Thank you.
    Did you want to comment, Mr. Cohen?
    Mr. Cohen. Thank you. I appreciate it. Let me provide a 
different view.
    You mention that a lot of people don't like to see their 
area densify. I was recently at a Senate briefing. Mr. 
Winkelman was there with me. The community experience has been 
that people don't like sprawl and people don't like 
densification. The problem is that those are the two options 
that are provided.
    So I admire the Smart Growth community in using terms like 
``sprawl'' for bad things, but the reality is that communities 
also when they understand the densification and congestion that 
could come from their plans, are not happy with those.
    The other issues you mentioned was low-income communities. 
Another reality is that Smart Growth communities, many are 
extremely unaffordable. This is a very serious problem with 
Smart Growth development. It might be cool to live in a 
community with mixed-use housing and be able to buy your latte 
and bike to it, but these communities typically are priced out 
of range for folks who you are wanting to serve.
    Ms. Solis. I think that is going to be our challenge, 
because we do want to integrate all our communities, especially 
communities of color. We want to create jobs. We want to create 
incentives so that there is a clean environment for them, and 
they should not be short-changed on any of this. So some of us 
feel very strongly about that and will work very hard to see 
that the models can be replicated everywhere, especially in 
rural communities as well where access and affordability also 
is a high standard.
    I think it can all be done. I really do believe that we can 
start addressing the issue. And because of energy costs, people 
want to stay closer to where they work and live. So that is 
forcing behavior to change right now in my state of California. 
That is all I can tell you.
    Mr. Blumenauer. I appreciate what you are saying in that 
regard. One of the things that you run into problems is that 
you have to link transportation and housing costs together. In 
California, you had people move further and further and further 
away. They may save a little on housing, but they end up paying 
more in total because they spend so much time and money in 
transportation.
    So I think part of what the Smart Growth advocates are 
talking about is integrating those pieces together. If we 
actually have communities that are well planned and integrated, 
it actually can end up reducing total costs for people.
    I was listening to Mr. Cohen's comment. I have had the same 
experience where in these big planning meetings you find people 
are opposed to only two things: sprawl and density. But I also 
find that when you, in the planning like you have in Abu Dhabi 
or you are talking about doing in Greensburg, when it is put 
together in a way that is reasonable, people love it.
    Notwithstanding Mr. Cohen's concerns, in our community the 
most valuable real estate is those areas that have regained 
their historic population levels. Most communities, yours and 
mine, actually have far fewer people than they had a generation 
ago. What we have is two or three times more cars, so that 
people have the congestion on the roads. They have the traffic. 
They are concerned. It is not the people, it is the cars. The 
real estate market suggests that those are in fact the most 
valuable areas.
    If you are done, I am going to go to just the last couple 
of questions to the panel before we adjourn, because I do think 
that it is important for us to think about this comprehensively 
in ways that will give people choices. We haven't talked about 
the demographic shock-wave that is about to hit our 
communities. We quote in our survey here Dr. Chris Nelson, who 
has some other fascinating research that talks about how our 
households--and some of us great up in the ``Leave It To 
Beaver'' era where half the families had children. We are going 
into an era where by 2030 when there will be more single person 
households than families with children, and the impact that 
that is going to have is one that I think is worthy of our 
consideration.
    I would like to invite our panelists to move away from the 
transportation side of the equation when we are dealing with 
Smart Growth. I appreciated the experience in Abu Dhabi. You 
are talking about being a net producer of energy and reduce or 
recycle the water. We are finding in communities across the 
country just as much concern about the rise in gas prices is 
the utility costs--the line loss for electric power extension, 
the costs for water and gas transmission are all going up.
    I am curious if there are observations, and we can just go 
down the row here or out witnesses, about the impacts we are 
going to have with saving land, because if we don't start 
having more compact development in this country, we are going 
to take another 68 million acres that will give us a developed 
footprint in this country about the size of Texas if we don't 
change things. I wonder if we can start with our Smart Growth 
advocates and go down and conclude with the Greensburg notion 
of what you are doing with the footprint on land utilization, 
if you wouldn't mind--footprint, water and energy.
    Mr. Goldberg. I think one thing that we are going to find 
is that we really don't have the luxury of developing 80 
percent of our commercial area as parking anymore, surface 
parking. Taking the land for that particular use is terrible 
for the watershed. It exacerbates urban heat islands, and it is 
a big waste. In fact, I think we are going to see that 
recycling parking lots, redeveloping these old shopping centers 
into places that are actually inhabitable villages is going to 
be one of the big solutions that we will find.
    If we just go out on the orange line and look at Arlington, 
they were able with advanced planning to get the community 
together and support what would happen around those transit 
stations out there, and leave the single-family neighborhoods 
alone. They got the development that they wanted, where they 
wanted it, and they were able to keep the other places the way 
they wanted them, with the result that there is significantly 
less traffic than anybody thought there would be because they 
are managing the parking very well. In just 7 percent of the 
land area, they are receiving about one-third or more of their 
tax revenues. So this can be a win on several different levels.
    Mr. Blumenauer. Thank you.
    Mr. Winkelman. Thank you. I commend the organization of 
this panel because when you talk about Smart Growth, what gets 
built are buildings. If we look at the climate change issue, we 
walk about mitigation, reducing emissions, and then adaptation, 
and how do you start to increase your resilience to the 
impacts.
    When we look at green buildings, those issues really come 
together. You have the efficiency, savings from transportation, 
building energy use, building water use savings, and then when 
you integrate green roofs and building materials, you can start 
to mitigate the impacts of urban heat islands. So it is really 
looking at how these issues come together to make us more 
resilient to the impacts of climate change.
    We are seeking urban leaders adaptation initiatives working 
with communities around the country to find where are those 
overlaps between energy and greenhouse gas emissions reductions 
and measures that strengthen a community's resilience to the 
impacts of climate change, whether it is the flooding we are 
seeing in the Midwest now or the fires in California.
    Mr. Blumenauer. Good. Thank you.
    Mr. Cohen. All these things are nice things. They all cost 
money. The reality is we have to look at them on a cost-per-
carbon-reduced basis, if that is the goal. If the goal is to 
maximize the amount of carbon we can reduce with the dollars we 
have, then we can do a lot of these things.
    So I think that is a really important thing, to focus on 
not the things that are cool, but the things that we are 
getting the most bang for our buck. Some of these ideas 
probably fit in within these IPCCs recommended estimate of $50 
per cost or $50 per ton removed. So I think if we focus on 
those things, we can do a lot.
    I don't agree, respectfully, that we have a land shortage 
in the country or that we should ration land. While I don't 
have my statistics with me, I would be happy to provide for the 
record information on land available in this country, but I 
think we might just disagree, and respectfully, at that.
    Mr. Blumenauer. Well, I would welcome that. It is not a 
shortage of land. It is going back to your criterion about 
effective development in terms of the cost and consequences for 
the utility lines, for the pollution, for the congestion, for 
taking away other infrastructure investments for the movement 
of freight.
    So I welcome your assessment of land, but it is things that 
have environmental and real-life consequences to continue 
paving. So if you put them both together, I would appreciate 
it.
    Doctor.
    Mr. Al Jaber. As far as we are concerned, we are very much 
aligned with your thoughts. But let us go back to Abu Dhabi as 
an example. A couple of years ago, Abu Dhabi announced the 
launch of the new Abu Dhabi 2030 urban plan. It is simply an 
urban framework structure that will implement new criteria for 
the new developments in Abu Dhabi.
    Now, in order for Abu Dhabi to continue its planned growth, 
and in order for Abu Dhabi to continue meeting its energy 
requirements, we have no way of doing it except by us being 
able to be more energy efficient and conserve energy and 
develop cities that are more compact.
    Let's go back in time, 200 years ago when we had no access 
to oil, no access to the wealth we have access to today--our 
grand-, grand-, grand-, grandparents. How did they live? They 
lived very, very efficiently. Their homes were very compact. 
They were very close to each other, with narrow streets, all 
shadowed, automated air conditioning through this bargil 
structure.
    Now, we are not saying let's go back and revisit the way we 
used to build our cities before, but we have to be very energy 
efficient. We have to conserve energy and we have to conserve 
water and we can use that as a model for us moving forward.
    Thank you.
    Mr. Blumenauer. Thank you.
    Mr. Hewitt.
    Mr. Hewitt. When we went through our comprehensive master 
plan, which is very important--planning in a comprehensive way 
is the right thing to do. We talked about land use. Land use is 
very important. Our footprint as a community, it would be very 
easy for people to begin to add mini-lots and expand their 
properties. That is actually against our comprehensive plan.
    We think that the density and the connectivity of a 
community is very important. Without that, you are fragmented, 
and that struggles with parks and schools. We understood that 
the footprint of our current community can handle much more 
growth than we ever had before if we plan correctly.
    So your Smart Growth methods are exactly the right 
decisions for Greensburg because Greensburg is not just looking 
at long-term planning that deals with future decisions, but the 
future of the present decisions, and that is important to us.
    Thank you.
    Mr. Blumenauer. Okay.
    Mr. Inslee. Mr. Hewitt, we have been working for years to 
try to get Congress and America to move in the direction that 
your community has. We as a country don't have the luxury of a 
tornado. We don't have this sort of life-altering event. We 
just have this slow, long-term collapse of the climatic system 
of the earth to deal with. I hate to think of a tornado as a 
cleansing thing because you had such a disaster, but it 
apparently did give you a chance to change the direction of 
your community.
    Can you just give us any thoughts that we can share with 
our colleagues about what insights this whole experience gave 
you and your community that you might not have had but for that 
disaster?
    Mr. Hewitt. It is sometimes hard to believe that an 
opportunity can come from such a devastating event. However, 
though, in our decisions, we understand that the world is 
watching us. The decisions we are making as a community 
hopefully can be replicated.
    So that is one of the biggest issues we have battled, is 
that what happens to communities that don't have devastation 
that are just surviving, but want to thrive and revitalize 
their community. One of the things we see is education. In 
green building and sustainability, you have to educate, which 
is a struggle in rural America, especially in rural Kansas.
    It is educating contractors, suppliers, engineers, 
architects that you have to step outside the box of your normal 
routine and think about educating and connecting people and 
collaborating together so that the growth and sustainability 
rebuild of our community can be replicated in a community that 
says, okay, we are going to build a new city hall and we have 
the tax dollars saved up from all these years. How do we do it 
in our budget? Where can we find the information about it? How 
can we do things, from all infrastructure from schools to 
hospitals?
    We are hoping that what we are doing in rural America in 
Kansas right now can be one step forward in the education 
process so that communities can revitalize themselves without a 
disaster happening.
    Mr. Inslee. So I know a homebuilder in my community, it is 
actually my oldest son, if he wants to come and do volunteer 
work to learn how to do some green building in his community, 
can he do that?
    Mr. Hewitt. Absolutely. We would love to bring anybody out 
to learn from our mistakes, from our successes, from our 
growing experience that hopefully that builders, contractors, 
suppliers, architects can hopefully take something back to 
their community and see that this is a good thing for them.
    Mr. Inslee. Are you receiving any sort of additional 
federal assistance because of this green commitment that you 
have made?
    Mr. Hewitt. No. We actually have larger gaps because we are 
going in this direction. We have been told by some agencies 
that they will not fund the level of sustainability that we 
want to go towards.
    Mr. Inslee. So given your extraordinary commitment, 
wouldn't it make some sense for the U.S. to look at this as a 
test case and have a little federal help for you along this 
way?
    Mr. Hewitt. We think it would be a perfect test case. We 
would encourage all government agencies, schools and hospitals, 
to take a hard look at what we are doing because we do believe 
it is the future that is in Smart Building.
    Mr. Inslee. You know, the fellow to your right, Dr. Al 
Jaber from Abu Dhabi, they have sort of made this test-case 
city, and we have this really impressive brochure that I have 
taken a look at. It just seems to me that the United States 
ought to be able to make a much smaller commitment in the heart 
of Kansas like this project in Abu Dhabi. I would like to talk 
to you when this is over maybe about a thought about that.
    Mr. Hewitt. Thank you.
    Mr. Inslee. Yes.
    Dr. Al Jaber, this is kind of interesting. Your presence 
here is timely. We have a debate in this country right now. 
Some think that our answer to our energy woes is just drill 
more. You just drill more holes. You just drill more oil and 
gas wells, and that will solve the problem. We have this debate 
right now in Congress about that.
    Why hasn't Abu Dhabi, sitting where it is, made that 
decision? Why have you decided to go a different route?
    Mr. Al Jaber. Abu Dhabi is looking at it from a different 
perspective. In order for the world to be able to meet its 
energy requirements, we believe in a basket of solutions. 
Hydrocarbons will pay a role, but renewables are also going to 
be able to play a very important role.
    We are very much supporters of the world looking at it from 
a different angle now. It is no longer one or the other. It is 
a basket of solutions and it is a portfolio of energy sources.
    Mr. Inslee. Thank you. I appreciate it. I will echo your 
comments in our next speech. Thank you very much.
    I want to ask Mr. Cohen. I want to brag because Mr. 
Blumenauer is too humble about his home town of Portland. 
Portland became I think the first major city to reduce its 
vehicle miles per person driven in America's history. I think 
that happened in 2007. They did it through a combination of 
good planning, which includes some very nice density, public 
transportation, and just a very coordinated approach to try to 
reduce vehicle miles driven per person.
    Did they do anything wrong?
    Mr. Cohen. I think respectfully that they did for a number 
of reasons. One is that they created a growth boundary around 
the town that increased the price of land. Even though carbon 
per capita was reduced, as I mentioned in my testimony, 
congestion greatly increased because when you double-density 
and you reduce per capita VMT by, say, 20 percent, you are 
still increasing congestion. So I think that is a concern and 
that also increases the cost of living.
    Secondly, there is sort of a theory, I think an idealistic 
theory, that if we just went back 80 years and we lived in 
smaller communities with street cars and everyone lived close 
together that this would be a terrific way of life. As Billy 
Joel said, the good days weren't always good, and tomorrow 
ain't as bad as it seems.
    The suburban development that we have had created the 
prosperity in this country. The Interstate system created the 
prosperity in this country that has given us the wealth able to 
make the air quality and water quality progress that we have 
made in the last 30 years. So just going back to the way things 
were with a revisionist idea of how ideal it was I think is 
seriously problematic. There are a lot of unintended 
consequences that we are not considering when we think in terms 
of pictures like that.
    Mr. Inslee. I will just tell you that the view from up the 
I-5 corridor from Portland has had the most extraordinary 
success creating a livable community, attractive to all, that 
people are dying to get into to live in. If this congested area 
that you are talking about is seen as essentially an urban 
nirvana compared to most of the cities in the country, I don't 
know when you have been to Portland recently, but you won't 
have a nicer Saturday afternoon strolling and using public 
transportation in Portland, Oregon. You ought to come out, 
especially in July and August.
    Mr. Blumenauer. When the rain is warmer.
    Mr. Inslee. When the rain is warmer, yes.
    Mr. Blumenauer. I would refer Mr. Cohen to the Texas 
Transportation Institute, where according to them, our 
congestion is not getting worse; that proportionately it has 
actually been reduced compared to other major cities. So I 
would like to have your experience about how your assertion 
that our urban growth boundary has increased congestion, when 
places that don't have urban growth boundaries have had worse 
congestion according to my information from the Texas 
Transportation Institute. I would like your evidence to back up 
your assertion.
    The second point I would make for your observation is that 
land prices were maintained, but housing prices have been more 
affordable than most other major cities. In this recent 
collapse when people are worried about not being able to sell 
their homes for what they are worth, for what their mortgages 
are, that we have maintained housing values. They haven't been 
as high elsewhere, but they have been maintained. They haven't 
been on the roller-coaster like in Las Vegas, which I would 
imagine you would think would be one of the best places.
    So I would like your evidence to the contrary about the 
congestion. I would like you to look at the Texas 
Transportation Institute and then look at what has happened 
actually with home values, because my evidence is slightly 
different than yours. I would like your evidence to the 
contrary to be a part of the record.
    Thank you.
    The last word, Mr. Winkelman?
    Mr. Winkelman. Thank you.
    If we look at congestion, we care about people more than we 
care about cars. So exposure to congestion is a metric that the 
Sacramento region has used. If you have more transportation 
choices and shorter trips, you spend less time in that 
congestion.
    I also want to make the point that the state departments of 
transportation across the country have an association called 
AASHTO, the American Association of State Highway and 
Transportation Officials. They conclude that we have to cut VMT 
growth in half to deal with growing capacity needs. We can't 
build our way out. There is not enough money, so they are 
actually supportive of Smart Growth principles, as well as 
system efficiency improvements to make the best use of existing 
infrastructure and take into account existing financial 
considerations.
    Mr. Blumenauer. Great. Thank you.
    Mr. Goldberg. I would just also like to briefly note as 
somebody who lives in Atlanta and has for a long time and 
followed the growth and development there, that there are 
absolutely no constraints to growth in Atlanta. The growth has 
gone absolutely everywhere. They have built roads like mad and 
it is the lowest density major metro area in the country and it 
continues to move up in congestion ranks nevertheless.
    Mr. Blumenauer. And then there are issues of energy 
consumption and a whole host of things.
    Well, I appreciate the committee's indulgence. I appreciate 
your kind words in defense of our beleaguered upper-left coast 
region.
    We appreciate the panel joining with us and adding an 
important dimension to the land-use and VMT planning 
consumption element of this. I think it is very useful, and 
your contributions have been very helpful, particularly given 
the bookends that we have had with Abu Dhabi and Greensburg. It 
is inspirational.
    Thank you very much.
    [Whereupon, at 11:23 a.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
